                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 103030010
                                                                                 11          Page 1 of 1



          February 4,2005

          This case was opened based upon an anonymous tip that the subject, an NSF employee, was
          misusing her government travel card. We conducted an investigation resulting in subject admitting
          under oath that she misused her travel card. Subject further admitted under oath that in connection
          with an NSF audit and proactive review, she had provided altered electronic records to OIG Audit
          and Investigations staff. The matter was referred to the Assistant U.S. Attorney for the Eastern
          District of Virginia and was accepted for prosecution.

          On December 16, 2003, Subject pled guilty to 18 U.S.C. 2071 (b), the destruction of an official
          record, a felony. Subject resigned her position in December 2003 and was sentenced on March 26,
          2004. The Judgment entered in this case on March 26, 2004, is attached to and is a part of this
          closeout memorandum.

          Accordingly, this case is closed.




NSF OIG Form 2 (1 1102)
-
    "
        4:'



         .%
                  1   --
                      -dSJ.
                         ,
         PO 245 S (Rev. ~ / Q ~ ) ( E Drev.)        -
                                        V ~ .Sheet 4 Probation



         Defendant: CHERYL LYNN KAMlNSKl
         Case Number: 1:03CR00584-001
                                                          SUPERVISED PROBATION
              -
                 The defendant is hereby placed on supervised probation for a term of TWO (2) YEARS. The Probation
         Office shall provide the defendant with a copy of the standard conditions and any special conditions of probation.

                        While on probation, the defendant shall not commit another federal, state, or local crime.

                        While on probation, the defendant shall not illegally possess a controlled substance.

                        While on probation, the defendant shall not possess a firearm or destructive device.

                        If this judgment imposes a fine or a restitution obligation, it shall be a condition of probation that the
                        defendant pay any such fine or restitution in accordance with the Schedule of Payments set forth in the
                        Monetary Penalties sheet of this judgment.


                                                  STANDARD CONDITIONS OF PROBATION

      The defendant shall comply with the standard conditions that have been adopted by this court (set forth below):
      1) The defendant shall not leave the judicial district without the permission of the court or probation officer.
      2) The defendant shall report to the probation officer and shall submit a truthful and complete written report
            within the first five days of each month.
    - 3 ) ~ - ~ 4 e f ~ d a n f ~ h - a l ~ - 8 ~ m - v ~ , e r - k ; ~ a ~ f u 1 1 ~ 1 l - i ~ ~ ~ ~ ~ ~ b y ' t h e p r d b instruzfib-ns
                                                                                                                              atio~-off~er-and~o
            probation officer.
      4) The defendant shall support his or her dependents and meet other family responsibilities.
      5) The defendant shall work regularly at a lawful occupation unless excused by the probation officer for
           schooling, training, or other acceptable reasons.
      6) The defendant shall notify the Probation Officer within 72 hours, or earlier if so directed, of any change in
            residence.
      7) The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute,
           or administer any narcotic or other controlled substance, or any paraphernalia related to such substances,
           except as prescribed by physician.
      8) The defendant shall not frequent places where controlled substances are illegally sold, used, distributed or
           administered.
      9) The defendant shall not associate with any persons engaged in criminal activity, and shall not associate with
            any person convicted of a felony unless granted permission to do so by the probation officer.
      10) The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall
            permit confiscation of any contraband observed in plain view of the probation officer.
      11) The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by
            a law enforcement officer.
      12) The defendant shall not enter into any agreement to act as an informer or a special agent of a law
            enforcement agency without the permission of the court.
      13) As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned
            by the defendant's criminal record or personal history or characteristics, and shall permit the probation officer
            to make such notifications and to confirm the defendant's compliance with such notification requirement.
    - - '
    i.
         -
         2J
            .
.                                                  -
    n ~ & 5 S (Rev. ~/%)(EDVA. rev.) Sheet 4 (mnt'd) Probation



    Defendant: CHERYL LYNN KAMlNSKl
    Case Number: 1:03CR00584-001

                                 SPECIAL CONDITIONS OF SUPERVISED PROBATION

    While on supervised probation, pursuant to this Judgment, the defendant shall also comply with the following
    additional conditions:

    I.) The defendant must serve TWENTY (20) WEEKENDS injail, with self-surrender permitted, as directed by the
    Bureau of Prisons and the Probation Officer.

    2.) The defendant is prohibitedfrom seeking or obtaining employment with the United States government during
    and after completion of her term of supervised release.

    3.) In the event that the fine is not paid immediately, defendant must pay the fine during supervised probation at
    the rate of ONE HUNDRED DOLLARS ($100.00) PER MONTH, beginning SIXTY (60) DAYS following the date
    of sentencing.
    ,                                             -
           40-245S (Rev. 3/93)(EDVA rev.) Sheet 5 Financial Penalties


                                                                                                  Judgment--Page 4 of 6
           Defendant: CHERYL LYNN KAMlNSKl
           Case Number: 1:03CR00584-001
                                        CRIMINAL MONETARY PENALTIES

           The defendant shall pay the following total monetary penalties in accordance with the schedule of payments set
           out below.


                                  Count                                 Special Assessment         -
                                                                                                   Fine
                               Information                                         $100.00   $1,000.00
                                  Total                                            $100.00   $1,000.00
                                                                         FINE

                             The defendant shall pay a fine of $1,000.00.

                             'This fine plus interest is due and payable immediately.

                                                         SCHEDULE OF PAYMENTS

        Payments shall be applied in the following order: (1) assessment; (2) restitution; (3) fine principal; (4) cost of
        prosecution; (5) interest; (6) penalties.

.   ....The~s~~cial~assessmenti~...dua
                               .in ..fullimrnediate~.-.
                                                    If-not. p a i d . - i m d ' ~ 1 y r ~ t b L 6 8 ~ ~ ~ i ~ & e - d e ~ t
        appropnate sums from the defendant's account while in confinement in accordance with the applicable rules and
        regulations of the Bureau of Prisons.

        Any special assessment, restitution, or fine payments may be subject to penalties for default and delinquency.

        If this judgment imposes a period of imprisonment, payment of Criminal Monetary penalties shall be due during
        the period of imprisonment.

        All criminal monetary penalty payments are to be made to the Clerk, United States District Court, except those
        payments made through the Bureau of Prisons' Inmate Financial Responsibility Program.
t
    .   -.2
        CT
                                                -
        A 0 245 S (Rw. 3/99)(EDVA rev.) Sheet 6 Restitution and Forfeiture


                                                                             Judgment--Page 5 of 6
        Defendant: CHERYL LYNN KAMlNSKl
        Case Number: 1:03CR00584-001
                                      RESTITUTION AND FORFEITURE

                                                               RESTITUTION
        Restitution has not been ordered in this case.

                                                                FORFEITURE
        Forfeiture has not been ordered in this case.
,                 *-
     1
         t:,.       ' 'Q&,*'
         .          %. 4
                                 .   I
                                            I


    b.    3'
                                                          -
          A 0 245 S (Rev. 3/99)(EDVA rev.) Sheet 7 Statement of Reasons


                                                                                                                                                   Judgment--Page 6 of.6
             Defendant: CHERYL LYNN KAMlNSKl
             Case Number: 1:03CR00584-001

                                                                  STATEMENT OF REASONS


             [x]               The Court adopts the factual findings and guideline application in the presentence report.



          [       1            The court adopts the factual findings and guideline application in the presentence report except
                               (see attachment, if necessary).


          .Guideline Ranne Determined bv the Court:

                               Total Offense Level:           6

                               Criminal History Category:           I

                               Imprisonment Range: 0                    to 6   .        months

                               Supervised Release Range: 2                     to 3            years
.             _        ...,.                                                               .   --      -.   ....   .   .. -   ..-   -   .. .   .
                                                                                                                                                       .   .   .   ... . . .
                                                                                                                                                                       --.
                                                                                                                                                                               . . .- ... .,
                                                                                                                                                                               .
                                                                                                                                                                                               -
                               Fine Range: $500                         to $5.000

                                         [ ] Fine waived or below the guideline range because of inability to pay.

                               Restitution: $

                                         [ ] Full restitution is not ordered for the following reason(s):

         Ex]                   The sentence is within the guideline range, that range does not exceed 24 months, and the Court
                               finds no reason to depart from the sentence called for by the application of the guidelines.



         [      1              The sentence is within the guideline range, that range exceeds 24 months, and the sentence is
                               imposed for the following reason(s):

                                                                                   OR

         11                    'The sentence departs from the guideline range.

                                         [ ] upon motion of the government, as a result of defendant's substantial assistance.

                                         [ ] for the following reason(s):
